  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General



      Transportation Security Administration’s
        Procedures For Law Enforcement
           Officers Carrying Weapons
          On Board Commercial Aircraft
              (Unclassified Summary)




              Office of Audits
OIG-05-52                        September 2005
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared by our office as part of our DHS oversight responsibilities to
promote economy, effectiveness and efficiency within the department.

This report represents an abbreviated version of our report containing sensitive security
information that assesses the strengths and weaknesses of the Transportation Security
Administration’s operating procedures for law enforcement officers to carry weapons on
board commercial aircraft. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The information contained in this report has been developed to the best knowledge
available to us, and had been discussed in draft with appropriate management officials. It
is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                               Richard L. Skinner
                                               Inspector General
                                                                                 Audit
OIG                                                                              Report
Department of Homeland Security
Office of Inspector General




 Introduction
             This report presents the results of the Department of Homeland
             Security, Office of Inspector General’s review of the
             Transportation Security Administration’s (TSA) procedures and
             controls to screen law enforcement officers (LEO) carrying
             handguns on board commercial aircraft. Congressman James L.
             Oberstar, Ranking Democratic Member, Committee on
             Transportation and Infrastructure requested the review. The
             Congressman asked us to determine whether current operating
             procedures ensure the safe and secure transport of weapons on
             commercial aircraft and to report on the number of federal, state
             and local government LEOs (other than federal air marshals) who
             have been authorized to carry weapons on commercial aircraft.

             We reviewed operating procedures and observed security practices
             at three airports. In addition, we interviewed various federal
             agencies including TSA, Federal Aviation Administration, Federal
             Air Marshal Service, and Department of Justice officials, as well as
             representatives from major airlines and airline industry
             associations.

Executive Summary
             Procedures to verify the identity of LEOs flying armed need to be
             strengthened. TSA needs to increase assurances that its primary
             control can verify that an individual is who he/she claims to be. To
             resolve this issue, TSA started a pilot program in July 2004 to
             develop a uniform biometric identification system for LEOs. The
             pilot program is not complete and is scheduled to continue through
             November 2005.




                                       Page 1
                                                                                                  Audit
OIG                                                                                               Report
Department of Homeland Security
Office of Inspector General



                    The U.S. Department of Justice estimated there were over 801,000
                    federal, state or local LEOs, however, the number authorized to fly
                    armed is unknown. 1 Generally, all federal LEOs are authorized to
                    fly armed if they have a mission need to do so. Whereas, only
                    selected state and local LEOs are authorized to fly armed, and this
                    generally includes those LEOs escorting prisoners or serving as
                    bodyguards for state officials.




1
 U.S. Department of Justice reported that as of June 2002 there were 93,000 federal LEOs, and as of June
2000, there were 708,022 state and local LEOs.


                                                    Page 2
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
